                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

Case Number: I 03110058                                                                          Page 1 of 1



         A proactive review of various Conference Grants identified two concerns regarding a grant to a
         midwestern university1that required additional investigation. The first concern involved various
         travel expenses for P.I. listed on the award to travel to Washington for a meeting with NSF
         regarding the funded project. If the purpose of this meeting was to attempt to influence NSF
         officials on a pending proposal, it could be a violation of the Byrd ~ m e n d m e n t . ~

       \-*
             The second issue involved references contained in the university's response to our initial request
             for additional documentation. Although the grantee stated that there was no Program Income
             generated by the Grant, there were references identifying registration fees for a "workshop" held
             in 2002.

             In December 2003 we requested additional information fiom the university regarding the award3
             and we received a response from the university on February 15,2004~.

         Our review of the university's response and the supporting documentation, including financial
         documents that they submitted, found their explanations to be sufficient and supported ,by the
         documents.

         Additionally, the issues identified during the preliminary review have been addressed and it has been
         determined that the university did not violate any NSF policies or procedures and no future action is
         warranted.

             Accordingly, this case is closed.




1
NSF 01G Form 2 (1 1/02)
                                                                                                                  I
